Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE REIMBURSEMENT FOR
  EXISTING END-STAGE RENAL
        DISEASE DRUGS




                    Inspector General

                      May 2004
                    OEI-03-04-00120
               Office of Inspector General

                                   http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�   A B S T R A C T 




                                  According to section 623(c) of the Medicare Prescription Drug,
                                  Improvement, and Modernization Act of 2003 (MMA), this study
                                  is to determine the difference between the Medicare payment
                                  amount for separately billable end-stage renal disease drugs and
                                  the acquisition costs of these drugs for facilities. The study
                                  must also estimate the rate of growth of facilities’ expenditures
                                  for these drugs. In 2003, the 4 largest dialysis providers paid
                                  between 12 percent and 68 percent less than the current
                                  Medicare reimbursement amount for the 10 drugs we reviewed.
                                  When weighted by 2002 total Medicare reimbursement for each
                                  of the drugs, acquisition costs for the 4 largest providers
                                  averaged 22 percent below current Medicare reimbursement
                                  amounts. Facilities not owned or managed by the 4 largest
                                  providers paid between 5 percent and 58 percent less than the
                                  Medicare reimbursement amount for the 10 drugs. On average,
                                  these facilities paid 14 percent less than the Medicare
                                  reimbursement amount. In 2003, average sales prices (ASPs)
                                  for the drugs under review were between 6 percent and 66
                                  percent below the Medicare reimbursement amount. When
                                  weighted by 2002 total Medicare reimbursement for each of the
                                  drugs, ASP was, on average, 17 percent below the Medicare
                                  reimbursement amount. According to our projections, Medicare
                                  reimbursement for all separately billable drugs will rise by 11
                                  percent ($216 million) between calendar years 2003 and 2005.




    O E I - 03 - 04 - 0 0 1 2 0   M E D I C A R E R E I M B U R S E M E NT   FOR   EX I S T I N G E S R D D RUGS   i
�    E X E C U T I V E                                             S U M M A R Y 



                                  OBJECTIVE
                                  To (1) determine the difference between the Medicare reimbursement
                                  amount for selected separately billable end-stage renal disease (ESRD)
                                  drugs and the acquisition cost of these drugs to facilities, and
                                  (2) estimate the growth rate of expenditures for ESRD drugs billed by
                                  these facilities, as required by the Medicare Prescription Drug,
                                  Improvement, and Modernization Act of 2003 (MMA).


                                  BACKGROUND
                                  The Centers for Medicare & Medicaid Services (CMS) reimburses all
                                  ESRD facilities based on a prospective payment system known as the
                                  composite rate. Facilities receive a fixed composite rate payment for
                                  each dialysis treatment they provide. The composite rate does not
                                  include many drugs that may be part of dialysis treatment, including
                                  erythropoietin (EPO) and numerous other drugs.
                                  Medicare reimbursement for EPO is limited by statute. Hospital-based
                                  ESRD facilities are reimbursed for drugs other than EPO based on
                                  Medicare principles of reasonable cost. In contrast, independent
                                  dialysis facilities are reimbursed for separately billable drugs (other
                                  than EPO) based on the lower of the submitted charge or 95 percent of
                                  the drugs’ average wholesale prices. In calendar year (CY) 2002,
                                  Medicare reimbursed more than $1.8 billion for separately billable
                                  drugs provided by independent dialysis facilities.
                                  We conducted this study based on a mandate set forth in section 623(c)
                                  of MMA. According to section 623(c), this study is to determine the
                                  difference between the Medicare payment amount for separately
                                  billable ESRD drugs and the acquisition costs of these drugs for
                                  facilities. This study must also estimate the rate of growth of facilities’
                                  expenditures for these drugs. CMS is to use data from this study to set
                                  CY 2005 reimbursement rates for ESRD drugs. CMS is also directed to
                                  increase the composite rate payment to offset any reductions in drug
                                  reimbursement resulting from this study.
                                  We collected acquisition cost data from the 4 largest national dialysis
                                  providers for 10 drugs that amounted to 98.4 percent of the total
                                  Medicare reimbursement in 2002. These 4 providers accounted for 73
                                  percent of Medicare reimbursement that year. We also collected cost
                                  data from a sample of facilities that are not owned or managed by these
                                  four providers. We collected average sales price (ASP) data for the 10

    O E I - 03 - 04 - 0 0 1 2 0   M E D I C A R E R E I M B U R S E M E NT   FOR   EX I S T I N G E S R D D RUGS   ii
E    X      E      C       U      T   I      V      E           S      U       M       M      A     R     Y


                                          drugs from drug manufacturers. We compared acquisition cost and ASP
                                          data to the current Medicare reimbursement amount (including
                                          copayment amount).
                                          To estimate the growth rate of expenditures, we obtained EPO and non-
                                          EPO reimbursement for each month from July 2000 to September 2003
                                          from CMS. Using a commercial time-series program, we developed
                                          autoregressive moving average (ARMA) models to obtain monthly
                                          forecasts of EPO and non-EPO reimbursement from October 2003 to
                                          December 2005. We summed these monthly forecasts to obtain the
                                          yearly projections for 2004 and 2005.


                                          FINDINGS
                                          In 2003, the 4 largest dialysis providers paid, on average, 22
                                          percent less than the Medicare reimbursement amount for 10
                                          drugs. The 4 largest dialysis providers paid between 12 percent and 68
                                          percent less than the current Medicare reimbursement amount for the
                                          10 drugs we reviewed. Four of the 10 drugs had average acquisition
                                          costs that were at least 50 percent below the current Medicare
                                          reimbursement amount. The average acquisition cost for EPO, which
                                          accounts for roughly two-thirds of Medicare reimbursement for
                                          separately billable drugs, was 12 percent less than the reimbursement
                                          amount based on the statutory limit. When weighted by 2002 total
                                          Medicare reimbursement for each of the drugs, acquisition costs for the
                                          4 largest providers were an average of 22 percent below current
                                          Medicare reimbursement amounts.
                                          In 2003, 122 facilities in our sample paid, on average, 14 percent
                                          less than the Medicare reimbursement amount for 10 drugs. For
                                          the 10 drugs we reviewed, the 122 facilities not owned or managed by
                                          the 4 largest providers had an average acquisition cost that was
                                          between 5 percent and 58 percent less than the current Medicare
                                          reimbursement amount. When weighted by 2002 total Medicare
                                          reimbursement for each of the drugs, acquisition costs for the 122
                                          facilities averaged 14 percent below current Medicare reimbursement
                                          amounts (compared to 22 percent below for the 4 largest providers).
                                          According to the facilities, actual acquisition costs for the drugs varied
                                          widely.
                                          In 2003, manufacturer-reported ASPs for 10 drugs were, on
                                          average, 17 percent below the Medicare reimbursement amount.
                                          In 2003, ASPs for the 10 drugs under review were between 6 percent

    O E I - 03 - 04 - 0 0 1 2 0           M E D I C A R E R E I M B U R S E M E NT   FOR   EX I S T I N G E S R D D RUGS   iii
E    X      E      C       U      T   I      V      E           S      U       M       M      A     R     Y


                                          and 66 percent below the Medicare reimbursement amount. When
                                          weighted by 2002 total Medicare reimbursement for each of the drugs,
                                          ASP was, on average, 17 percent below the Medicare reimbursement
                                          amount.
                                          Medicare expenditures for all separately billable drugs are estimated
                                          to increase by 11 percent between 2003 and 2005. According to our
                                          projections, we expect that Medicare’s expenditures for all separately
                                          billable drugs will rise by 11 percent ($216 million) between 2003 and
                                          2005. We estimate that Medicare reimbursement for EPO will increase
                                          by $146 million (11 percent) during this period, and that reimbursement
                                          for other separately billable drugs will grow by $70 million (11 percent).
                                          In calculating future growth rates, we looked exclusively at past
                                          monthly growth rates for the reimbursement for separately billable
                                          drugs. We did not account for the potential effects of future changes,
                                          such as adjustments to the drug reimbursement methodology, the
                                          approval of new dialysis drugs, unforeseen increases in the number of
                                          beneficiaries eligible for the benefit, or the establishment of new quality
                                          standards on drug utilization. We realize, however, that these factors
                                          may play a key role in any future growth. Therefore, we would like to
                                          stress that CMS should update our projections as new reimbursement
                                          data become available.


                                          CONCLUSION
                                          MMA required the Office of Inspector General to provide to CMS a
                                          report that (1) determined the difference between the Medicare
                                          payment amount for separately billable ESRD drugs and the acquisition
                                          costs of these drugs for facilities, and (2) estimated the rate of growth of
                                          facilities’ expenditures for these drugs. This information is to be used
                                          by CMS in its efforts to set CY 2005 reimbursement amounts for
                                          separately billable ESRD drugs.
                                          The information in this report represents average acquisition costs to
                                          independent dialysis facilities for 10 drugs in 2003. According to
                                          respondents, the prices of some of these drugs have already increased in
                                          2004, and may change again by the time a new pricing methodology
                                          goes into effect in 2005. In addition, while the goal of this study was to
                                          establish the acquisition cost of certain drugs to independent dialysis
                                          facilities, the data make it clear that different facilities sometimes pay
                                          different prices for the same product. Because of this, any


    O E I - 03 - 04 - 0 0 1 2 0           M E D I C A R E R E I M B U R S E M E NT   FOR   EX I S T I N G E S R D D RUGS   iv
E    X      E      C       U      T   I      V      E           S      U       M       M      A     R     Y


                                          reimbursement amount set by CMS may still allow some facilities to
                                          profit from purchasing drugs, and others to potentially lose money.
                                          In conclusion, we hope that these data are useful to CMS in establishing
                                          a methodology for reimbursing separately billable ESRD drugs. We
                                          would be pleased to assist CMS as they move forward with any new
                                          pricing methodology.
                                          Agency Comments
                                          In accordance with the statutory mandate, we issued a draft report to
                                          CMS on April 1, 2004 that contained much of the data presented in this
                                          report. CMS thanked us for the opportunity to review the draft report.
                                          They included several technical comments that have been addressed in
                                          the final version.




    O E I - 03 - 04 - 0 0 1 2 0           M E D I C A R E R E I M B U R S E M E NT   FOR   EX I S T I N G E S R D D RUGS   v
�   T A B L E         O F             C O N T E N T S 




           A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii



           I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



           FINDINGS

                       Acquisition costs of four largest providers ......................................... 8


                       Acquisition costs of facilities not owned by four largest providers.... 9


                       Average sales prices reported by manufacturers............................. 10


                       Trends in Medicare expenditures between 2003 and 2005 ............. 11



           C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13




           APPENDIX
                       Centers for Medicare & Medicaid Services’s Comments ................. 14





           A C K N O W L E D G E M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

   �           I N T R O D U C T I O N 



                              OBJECTIVE
                              To (1) determine the difference between the Medicare reimbursement
                              amount for selected separately billable end-stage renal disease (ESRD)
                              drugs and the acquisition cost of these drugs to facilities, and
                              (2) estimate the growth rate of expenditures for ESRD drugs billed by
                              these facilities, as required by the Medicare Prescription Drug,
                              Improvement, and Modernization Act of 2003 (MMA).


                              BACKGROUND
                              Medicare Payments for Dialysis Services
                              The Medicare program currently covers dialysis services for more than 

                              265,000 patients under its ESRD benefit. Payments for dialysis and 

                              accompanying services account for approximately $5 billion of the 

                              $13 billion Medicare spends annually on dialysis patients. In 

                              accordance with 42 U.S.C. § 1395rr, the Centers for Medicare & 

                              Medicaid Services (CMS) reimburses all dialysis facilities based on a 

                              prospective payment system known as the composite rate. Facilities 

                              receive a fixed composite rate payment for each dialysis treatment they 

                              provide. The composite rate includes most items related to dialysis 

                              services, including labor costs, related supplies, routine tests, and some 

                              drugs. However, the composite rate does not include certain drugs that 

                              may be part of dialysis treatment, including erythropoietin (EPO) and 

                              numerous other drugs.

                              Medicare Payments for Separately Billable ESRD Drugs

                              According to CMS’s Provider Reimbursement Manual, Medicare 

                              coverage of separately billable drugs in dialysis facilities is limited to 

                              products that cannot be self-administered, i.e., drugs that are 

                              administered by a health care professional. The exception to this 

                              requirement is EPO, a drug that stimulates the production of red blood 

                              cells in patients with anemia. EPO furnished by dialysis facilities is 

                              covered even if it is self-administered by the patient.

                              Medicare reimbursement for EPO is limited by statute. Hospital-based
                              ESRD facilities are reimbursed for drugs other than EPO based on
                              Medicare principles of reasonable cost. In contrast, independent
                              dialysis facilities are reimbursed for separately billable drugs other
                              than EPO through a different payment methodology. Medicare
                              reimbursement for a drug furnished in an independent dialysis facility
                              is based on the lower of the billed amount or 95 percent of its average


O E I - 03 - 04 - 0 0 1 2 0   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   1
        I     N      T        R   O   D   U       C     T      I    O      N


                                              wholesale price. In calendar year (CY) 2002, Medicare reimbursed more
                                              than $1.8 billion for separately billable drugs provided by independent
                                              dialysis facilities.
                                              Studies Mandated By the MMA
                                              We conducted this study based on a mandate set forth in the MMA.
                                              Section 623(c)(1) of MMA states:
                                                          The Inspector General of the Department of Health and
                                                          Human Services shall conduct two studies with respect to
                                                          drugs and biologicals (including erythropoietin) furnished
                                                          to end-stage renal disease patients under the medicare
                                                          program which are separately billable by end-stage renal
                                                          disease facilities.
                                              According to MMA, the studies are to determine the difference between
                                              the Medicare payment amount for separately billable ESRD drugs and
                                              the acquisition costs of these drugs for facilities. The studies must also
                                              estimate the rate of growth of facilities’ expenditures for these drugs.
                                              The first study, which focuses on existing ESRD drugs, must be
                                              completed by April 1, 2004. The second study, which focuses on new
                                              ESRD drugs, is to be completed by April 1, 2006.
                                              CMS is to use data from the first study to set CY 2005 reimbursement
                                              rates for ESRD drugs, including EPO, billed by independent dialysis
                                              facilities. CMS is also directed to increase the composite rate payment
                                              to offset any reductions in drug reimbursement recommended by the
                                              study.


                                              METHODOLOGY
                                              Medicare Reimbursement Amounts

                                              We determined total Medicare reimbursement1 for separately billable 

                                              ESRD drugs in independent dialysis facilities in CY 2002 by accessing 

                                              CMS’s National Claims History File. We created a summary of total 

                                              Medicare reimbursement made to independent dialysis facilities for 3 

                                              revenue center codes (0634, 0635, 0636) used to bill for drugs. Revenue 

                                              center codes 0634 and 0635 represent EPO. Code 0636 represents drugs 

                                              requiring further identification via procedure codes. 




                                              1   “Total Medicare reimbursement” only reflects program expenditures, and does not include
                                                  beneficiary copayments.



O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS            2
        I     N      T        R   O   D   U       C     T      I    O      N


                                              According to data in the National Claims History File, Medicare 

                                              reimbursed independent dialysis facilities $1.84 billion for the selected 

                                              revenue center codes in CY 2002. Reimbursement for revenue center 

                                              codes 0634 and 0635 (EPO) was $1.23 billion of the total, with the 

                                              remaining $610 million being for revenue center code 0636 (drugs 

                                              requiring a procedure code). We ranked the procedure codes listed with 

                                              revenue center code 0636 from those with the most total reimbursement

                                              to those with the least total reimbursement. The top 13 procedure codes 

                                              represented 11 different drugs, and accounted for $594 million of the 

                                              $610 million reimbursed for revenue center code 0636 in 2002.

                                              We removed two procedure codes representing Hepatitis B vaccines 

                                              from the list of reviewed drugs. We removed these codes because 

                                              vaccines appear to be excluded from any new pricing methodology, and 

                                              will apparently be reimbursed at previous levels. With the two vaccine 

                                              codes removed, Medicare reimbursement for the remaining 11 

                                              procedure codes and EPO totaled $1.81 billion, or 98.4 percent of total 

                                              Medicare reimbursement in 2002.

                                              For EPO, we determined the Medicare reimbursement amount based on 

                                              the statutory limit. For the 11 procedure codes, we determined the 

                                              current Medicare reimbursement amount (including copayment 

                                              amount) by accessing the January 2004 Medicare Single Drug Pricer 

                                              file.2 We found that several of the 11 procedure codes under review had 

                                              been changed since 2002. Some codes were changed to account for new 

                                              dosage sizes, while others were combined into new codes. These coding 

                                              changes reduced the number of procedure codes in our study from 11 to 

                                              9 (1 code for each of the 9 drugs). 

                                              Identifying Products Represented by Procedure Codes

                                              We used the October 2003 publication of Drug Topics Red Book to 

                                              identify all drug products that met the definition of the 9 procedure 

                                              codes and EPO. Five of the nine procedure codes were for single-source 

                                              drugs, meaning only one product (in varying unit sizes) met the 

                                              procedure code definition. EPO is also a single source drug. The other 

                                              four procedure codes represented multiple-source drugs, meaning more 



                                              2   The “Medicare Reimbursement Amount,” as published in the Single Drug Pricer File,
                                                  consists of 2 separate payments: 80 percent of this amount is reimbursed to the provider
                                                  by the Medicare program itself, with the remaining 20 percent being coinsurance that is
                                                  to be paid to the provider by the beneficiary. Though EPO for ESRD patients is not listed
                                                  in the Single Drug Pricer file, it is also subject to the 80 percent program payment and the
                                                  20 percent beneficiary coinsurance.



O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS                 3
        I     N      T        R   O   D   U       C     T      I    O      N


                                              than one drug product met the definition of the code. Using the
                                              information listed in Drug Topics Red Book, we then identified the
                                              manufacturers for each of the drug products.
                                              Determining Facility Acquisition Costs
                                              A large majority of independent dialysis facilities are owned or managed
                                              by national dialysis corporations. Using an industry publication, we
                                              identified the four largest corporations that provide dialysis services
                                              (hereinafter referred to as providers). We asked the four providers to
                                              provide a list of Medicare provider numbers for all of the facilities that
                                              they owned or managed. In 2002, 3,538 provider numbers appeared on
                                              reimbursed claims for separately billable drugs used in independent
                                              dialysis facilities, of which 2,396 represented facilities owned or
                                              managed by the 4 largest providers. 3 We matched the 2,396 provider
                                              numbers against the National Claims History File, and determined that
                                              facilities owned or managed by the 4 providers received 73 percent of
                                              Medicare reimbursement for separately billable drugs in 2002.

                                              We sent a request to the 4 providers asking them to provide CY 2003
                                              acquisition cost information for the drugs under review. The requested
                                              information was to include data on the total cost of the purchases, the
                                              number of units purchased, and the amount of discounts and rebates
                                              received. We calculated an overall acquisition cost for each drug by
                                              adding the total cost of purchases (net of all rebates and discounts)
                                              made by all four providers and dividing the total by the number of units
                                              purchased. We did not remove prompt pay discounts from our
                                              calculations as we believe they are a key factor that should be accounted
                                              for when computing actual acquisition cost. At the request of the
                                              providers, we also obtained a list of any additional costs associated with
                                              acquiring separately billable drugs. For this report, we did not verify
                                              any of the cost information given by the providers.
                                              According to the National Claims History File, Medicare reimbursed
                                              1,142 facilities that were not owned or managed by the 4 largest
                                              providers in 2002. To estimate the costs of drugs for these facilities, we
                                              selected a random sample of 200 facilities. We sent a similar request to
                                              the sampled facilities as was sent to the four providers. Ten of the 200
                                              facilities informed us that they were now owned or managed by 1 of the

                                              3   According to the lists provided by the 4 largest providers, they owned or managed 2,396
                                                  facilities. However, we later determined that these providers had acquired other facilities
                                                  that were not represented in their lists. Therefore, these 4 providers may now actually
                                                  account for more than 73 percent of Medicare reimbursement.



O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS                 4
        I     N      T        R   O   D   U      C        T    I    O      N


                                              4 largest providers. We received responses from 122 of the 190 facilities 

                                              (64 percent) remaining in the sample. We calculated an overall 

                                              acquisition cost in CY 2003 for each drug by taking the average price of 

                                              the drug among all the responding facilities. We did not verify any of 

                                              the cost information given by the facilities.

                                              Determining Manufacturer Average Sales Prices

                                              According to Drug Topics Red Book, there are 11 different 

                                              manufacturers of the 10 drugs under review. We sent a request to each 

                                              of the manufacturers asking them to provide for each of their products:

                                                      •	      The average sales price (ASP) in CY 2003 to all purchasers.
                                                              ASP, which will become the basis for Part B drug
                                                              reimbursement in 2005, is defined by MMA as the total sales to
                                                              all purchasers (net of all rebates and discounts and excluding
                                                              certain exempted sales) divided by the number of units sold to
                                                              all purchasers.
                                                      •       ASP to independent dialysis facilities only

                                                      •	      The 75th and 90 th percentile sales prices to all purchasers (e.g.,
                                                              75 percent of sales were at X price or lower, and 90 percent were
                                                              at Y price or lower).
                                                      •	      The 75th and 90 th percentile sales prices to independent dialysis
                                                              facilities only
                                              All 11 manufacturers responded to our request. For drugs with
                                              products distributed by more than one manufacturer, we calculated the
                                              median of the supplied ASPs and percentile data. Although we
                                              requested from the manufacturers ASP data for independent dialysis
                                              facilities only, as well 75th percentile and 90th percentile pricing data, we
                                              did not receive this information for all of the drugs. Furthermore, the
                                              data that was provided varied widely in comparison to the ASP for all
                                              purchasers, and we concluded that it was not meaningful to report.
                                              In their responses, most manufacturers indicated that the data they
                                              provided were to be considered confidential. We specifically requested
                                              that manufacturers consent to having their reported ASPs included in
                                              this report. Because not every manufacturer provided such consent, we
                                              are not listing specific ASPs for any individual drugs. We will only
                                              discuss ASPs in general terms in this report.
                                              Comparing Medicare Reimbursement to Acquisition Costs
                                              We compared the Medicare reimbursement amount for each drug to
                                              facility acquisition costs and reported ASPs by calculating the

O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   5
        I     N      T        R   O   D   U       C     T      I    O      N


                                              percentage difference between the Medicare reimbursement amount
                                              and each number. To determine the overall amount that the acquisition
                                              costs and ASPs were below Medicare reimbursement, we:
                                              1)	 Assigned a weight to each drug based on its percentage of Medicare
                                                  reimbursement
                                              2)	 Multiplied this weight by the percentage difference between the
                                                  Medicare reimbursement amount and the acquisition cost/ASP
                                              3) Totaled the weight-adjusted percentage differences
                                              Estimating Growth Rate of Expenditures
                                              From CMS’s National Claims History File, we obtained reimbursement
                                              totals for all separately billable EPO and non-EPO drugs for each
                                              month from June 2000 to September 2003 4. Using a combination of a
                                              commercial time-series program called ITSM® and Microsoft Excel®, we
                                              first removed trend and seasonal components from the data to obtain
                                              stationary residuals. We then used ITSM® to find autoregressive
                                              moving average (ARMA) models for each set of residuals. Using these
                                              models, we obtained monthly forecasts of EPO and non-EPO
                                              reimbursement from October 2003 to December 2005. We summed
                                              these monthly forecasts to obtain the yearly projections for 2003, 2004,
                                              and 2005.

                                              While these models pass all standard tests for goodness-of-fit, they
                                              should be refined using additional data as they become available. In
                                              addition, it is important to note that these models were based entirely
                                              from past data on reimbursement for EPO and non-EPO drugs. To the
                                              extent that any underlying factors governing reimbursement for ESRD
                                              drugs were to change significantly, then our projection may become less
                                              accurate in the future.




                                              4   The variable for Medicare reimbursement was not fully populated until June 2000. In
                                                  order to get an estimate of total Medicare reimbursement for all of 2000, we calculated a
                                                  ratio of Medicare reimbursement to Medicare total charges for June through December of
                                                  2000, and then multiplied Medicare total charges for January through May by this ratio.
                                                  We added the estimate of reimbursement for the first 5 months to the actual
                                                  reimbursement for the last 7 months to get a figure for total 2000 reimbursement.



O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS               6
        I     N      T        R   O   D   U      C      T      I    O      N


                                              SCOPE
                                              This inspection focused only on drugs that were separately billed by
                                              independent dialysis facilities. We limited the focus to independent
                                              dialysis facilities because drugs that they provide are currently
                                              reimbursed at a percentage of published average wholesale prices.
                                              Other types of facilities are reimbursed for separately billable drugs
                                              based on Medicare principles of reasonable cost.
                                              Almost 250 separately billable drugs were reimbursed by Medicare in
                                              2002. We reviewed pricing data for 10 drugs (9 procedure codes plus
                                              EPO) that accounted for 98.4 percent of all Medicare reimbursement.
                                              We did not independently verify any of the cost or price information
                                              provided by corporations, facilities, or manufacturers.
                                              The cost data reported for the sampled facilities are meant to portray
                                              costs for the 122 facilities only. We did not project the data to other
                                              facilities.
                                              In calculating future growth rates, we looked exclusively at past
                                              monthly growth rates for the reimbursement for separately billable
                                              drugs. We did not account for the potential effects of changes to the
                                              drug reimbursement methodology, the approval of new dialysis drugs,
                                              unforeseen increases in the number of beneficiaries eligible for the
                                              benefit, or the establishment of new quality standards on drug
                                              utilization. We realize, however, that these factors may play a key role
                                              in any future growth. Therefore, we would like to stress that CMS
                                              should update our projections as new reimbursement data become
                                              available.




O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   7
        F      I     N
   0                   F DI IN ND G I SN G S


     In 2003, the 4 largest dialysis providers paid, on                      As shown in Table 1, the 4 largest
          average, 22 percent less than the Medicare                         dialysis providers paid between 12
                              reimbursement amount for 10 drugs.             percent and 68 percent less than
                                                                             the current Medicare
                                     reimbursement amount for the 10 drugs we reviewed. Four of the 10
                                     drugs had average acquisition costs that were at least 50 percent below
                                     the current Medicare reimbursement amount. The average acquisition
                                     cost for EPO, which accounts for roughly two-thirds of Medicare
                                     reimbursement for separately billable drugs, was 12 percent less than
                                     the reimbursement amount based on the statutory limit. When
                                     weighted by 2002 total Medicare reimbursement for each of the drugs,
                                     acquisition costs for the 4 largest providers averaged 22 percent below
                                     current Medicare reimbursement amounts.

Table 1: Acquisition Costs of Four Largest Providers Compared to Medicare Reimbursement
                                                           Current           2003         Percent         2002
                                                           Medicare        Average       Acquisition      Total
 Procedure                                              Reimbursement     Acquisition   Cost Is Below    Medicare
   Code                  Drug Description                  Amount            Cost         Medicare    Reimbursement
       N/A            EPO, 1000 units                                                            $10.00                     $8.79    12%   $1,225,249,269
     J0636            Calcitriol, .1 mcg                                                          $1.38                     $0.87    37%     $22,075,118
     J1270            Doxercalciferol, 1 mcg                                                      $5.50                     $2.32    58%     $23,143,397
     J1750            Iron Dextran, 50 mg                                                        $17.91                     $10.00   44%     $11,716,368
     J1756            Iron Sucrose, 1 mg                                                          $0.66                     $0.32    51%     $90,251,738
     J1955            Levocarnitine, 1 gm                                                        $34.20                     $10.93   68%     $30,254,432
     J2501            Paricalcitol, 1 mcg                                                         $5.33                     $3.50    34%    $287,086,139
     J2916            Sodium Ferric Gluconate Complex, 12.5 mg                                    $8.17                     $4.40    46%    $108,979,052
     J2997            Alteplase, Recombinant, 1 mg                                               $36.70                     $28.84   21%      $3,443,736
     J3370            Vancomycin HCl, 500 mg                                                      $7.03                     $2.68    62%      $3,602,902
    TOTAL             WEIGHTED BY 2002 REIMBURSEMENT                                                                                 22%   $1,805,802,151
Source: 2004 OIG Survey of 4 Largest Dialysis Providers




                                            Each provider reported that several of the prices listed in Table 1 are
                                            not representative of 2004 acquisition costs because manufacturers have
                                            recently instituted price increases for several of the drugs. For example,
                                            all 4 providers reported a 5 percent price increase for Paricalcitol that
                                            went into effect on August 1, 2003. Recent or future price increases of
                                            between 3 percent and 18 percent were also reported for Doxercalciferol,
                                            Alteplase, and EPO.

                                            Three providers reported that they are able to lower actual acquisition
                                            costs through the utilization of overfill for EPO. According to one


O E I - 03 - 04 - 0 0 1 2 0                 ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS                          8
        F      I     N        D   I   N   G    S


                                              respondent, the manufacturer of EPO overfills its vials (e.g., puts more
                                              than the stated amount of EPO in a vial) to “guarantee a minimum
                                              dosing level for effective use of the product. The overfill ranges from 7
                                              to 14 percent based on type of vials.” Another provider reported a
                                              similar overfill percentage for Paricalcitol. Because the amount of
                                              overfill varies, and because facilities may have different practices
                                              regarding the utilization of overfill, it was not accounted for in any of
                                              the acquisition cost calculations.
                                              The providers also supplied data on additional costs they believe are
                                              associated with acquiring drugs. These costs included inventory costs,
                                              working capital costs, and spoilage/waste costs. The providers
                                              estimated these additional expenses accounted for as much as 1.5
                                              percent of total drug costs. We did not perform any independent
                                              analysis of this data.



               In 2003, 122 facilities in our sample paid, on            As shown in Table 2 on the
                                                                         following page, the 122 facilities
                   average, 14 percent less than the Medicare
                                                                         not owned or managed by the 4
                         reimbursement amount for 10 drugs.
                                                                         largest providers had an average
                                 acquisition cost that was between 5 percent and 58 percent less than the
                                 current Medicare reimbursement amount for the 10 drugs we reviewed.
                                 The 122 facilities that responded to our request paid more, on average,
                                 for each of the 10 drugs than the 4 largest providers. When weighted by
                                 2002 total Medicare reimbursement for each of the drugs, acquisition
                                 costs for the 122 facilities averaged 14 percent below current Medicare
                                 reimbursement amounts (compared to 22 percent below for the 4 largest
                                 providers).
                                              According to the data, actual acquisition costs for each drug varied
                                              widely among facilities. For example, the average acquisition cost for
                                              EPO was $9.50, 5 percent less than the statutorily limited
                                              reimbursement amount of $10.00. The lowest acquisition cost for EPO
                                              reported by a facility in our sample was $8.68, while the highest
                                              reported cost was $10.96. Approximately one-quarter of the
                                              respondents in the sample reported paying more than the current
                                              Medicare reimbursement amount of $10.00 for EPO.




O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   9
        F      I     N        D   I   N   G    S


Table 2: Acquisition Costs of Sampled Facilities Compared to Medicare Reimbursement
                                                            Current          2003                                                        Percent         2002
                                                           Medicare        Average                                                      Acquisition      Total
 Procedure                                             Reimbursement      Acquisition                                                  Cost Is Below    Medicare
   Code                  Drug Description                  Amount            Cost                                                        Medicare    Reimbursement
       N/A            EPO, 1000 units                                                              $10.00                     $9.50        5%        $1,225,249,269
     J0636            Calcitriol, .1 mcg                                                            $1.38                     $0.92        33%         $22,075,118
     J1270            Doxercalciferol, 1 mcg                                                        $5.50                     $2.59        53%         $23,143,397
     J1750            Iron Dextran, 50 mg                                                          $17.91                     $10.25       43%         $11,716,368
     J1756            Iron Sucrose, 1 mg                                                            $0.66                     $0.39        41%         $90,251,738
     J1955            Levocarnitine, 1 gm                                                          $34.20                     $16.87       51%         $30,254,432
     J2501            Paricalcitol, 1 mcg                                                           $5.33                     $4.15        22%        $287,086,139
     J2916            Sodium Ferric Gluconate Complex, 12.5 mg                                      $8.17                     $4.96        39%        $108,979,052
     J2997            Alteplase, Recombinant, 1 mg                                                 $36.70                     $30.15       18%          $3,443,736
     J3370            Vancomycin HCl, 500 mg                                                        $7.03                     $2.92        58%          $3,602,902
    TOTAL             WEIGHTED BY 2002 REIMBURSEMENT                                                                                       14%       $1,805,802,151
Source: 2004 OIG Survey of Facilities not Owned or Managed by 4 Largest Providers




                                                              In 2003, ASPs for the 10 drugs
            In 2003, manufacturer-reported ASPs for 10
                                                              under review were between 6
       drugs were, on average, 17 percent below the           percent and 66 percent below the
                  Medicare reimbursement amount.              Medicare reimbursement amount.
                                                              Three of the 10 separately billed
                         drugs had reported ASPs that were more than 50 percent below
                         Medicare reimbursement. When weighted by 2002 total Medicare
                         reimbursement for each of the drugs, ASP was, on average, 17 percent
                         below the Medicare reimbursement amount. This figure falls between
                         the average acquisition costs of the 4 largest providers (22 percent below
                         Medicare) and the 122 providers in our sample (14 percent below
                         Medicare).
                                              ASPs for the 10 drugs ranged from 11 percent below the acquisition
                                              costs to 35 percent above the acquisition costs of the 4 largest providers,
                                              averaging 6 percent above acquisition cost. In comparison, ASPs for
                                              the 10 drugs ranged from 19 percent below the acquisition costs to 3
                                              percent above the acquisition costs of the 122 responding facilities in
                                              our sample, averaging 4 percent below acquisition cost. While multiple
                                              source drugs represented the more extreme values in the ranges, they
                                              also accounted for fairly small percentages of total Medicare
                                              reimbursement.




O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS                                10
                  F                  I     N   D     I      N   G    S




    Medicare expenditures for all separately billable                                    According to our projections, we
                                  drugs are estimated to increase by 11 percent          expect that Medicare’s
                                                        between 2003 and 2005.           expenditures for all separately
                                                                                         billable drugs will rise by 11
                                                    percent ($216 million) between 2003 and 2005. We estimate that
                                                    Medicare reimbursement for EPO will increase by $146 million (11
                                                    percent) during this period, and that reimbursement for other
                                                    separately billable drugs will grow by $70 million (11 percent). Graph
                                                    1 on the following page illustrates the projected growth.

                                                                        As Graph 1 shows, the growth of expenditures for both EPO and non-
                                                                        EPO drugs has been slowing in recent years. For example, total
                                                                        Medicare reimbursement for EPO increased by 15 percent between
                                                                        2000 and 2001, 12 percent between 2001 and 2002, and just 9 percent
                                                                        between 2002 and 2003. Similarly, Medicare reimbursement for non-
                                                                        EPO drugs increased by 41 percent between 2000 and 2001, 18
                                                                        percent between 2001 and 2002, and only 1 percent between 2002 and
                                                                        2003.
Graph 1: Future Growth of Medicare Expenditures for Separately Billable Drugs


                                  $2,500




                                  $2,000                                                                                                                          $2,163
                                                                                                                                                       $2,079
                                                                                                                               $1,947
       Reimbursement (millions)




                                                                                                   $1,835

                                  $1,500                                 $1,606                                                                                            EPO
                                                                                                                                                       $1,418    $1,478
                                                   $1,317                                                                                                                  Non-EPO
                                                                                                                               $1,332
                                                                                                    $1,225                                                                 Total
                                  $1,000
                                                                         $1,091
                                                    $950

                                   $500                                                                                        $615                   $661       $685
                                                                                                    $610
                                                                          $516
                                                   $366

                                     $0

                                               2000*                   2001                       2002                      2003**                   2004***    2005***
                                                                                                                    Year



* Estimated                                ** Projected, Based on Partial-Year Data and Prior Growth Rates *** Projected, Based on Prior Growth Rates



                                                                    In calculating future growth rates, we looked exclusively at past
                                                                    monthly growth rates for the reimbursement for separately billable
                                                                    drugs. We did not account for the potential effects of future changes,
                                                                    such as adjustments to the drug reimbursement methodology, the
                                                                    approval of new dialysis drugs, unforeseen increases in the number of


O E I - 03 - 04 - 0 0 1 2 0                                         ME D I C A R E RE I M B U R S E M E N T   FOR    EX I S T I N G E S R D D RUGS                               11
        F      I     N        D   I   N   G    S


                                              beneficiaries eligible for the benefit, or the establishment of new quality
                                              standards on drug utilization. We realize, however, that these factors
                                              may play a key role in any future growth. Therefore, we would like to
                                              stress that CMS should update our projections as new reimbursement
                                              data become available.




O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   12
   �           C O N C L U S I O N                                      





                              MMA required the Office of Inspector General to provide to CMS a
                              report that (1) determined the difference between the Medicare
                              payment amount for separately billable ESRD drugs and the
                              acquisition costs of these drugs for facilities, and (2) estimated the rate
                              of growth of facilities’ expenditures for these drugs. This information is
                              to be used by CMS in its efforts to set CY 2005 reimbursement amounts
                              for separately billable ESRD drugs.
                              The information in this report represents average acquisition costs to
                              independent dialysis facilities for 10 drugs in 2003. According to
                              respondents, the prices of some of these drugs have already increased in
                              2004, and may change again by the time a new pricing methodology
                              goes into effect in 2005. In addition, while the goal of this study was to
                              establish the acquisition cost of certain drugs to independent dialysis
                              facilities, the data make it clear that different facilities sometimes pay
                              different prices for the same product. Because of this, any
                              reimbursement amount set by CMS may still allow some facilities to
                              profit from purchasing drugs, and others to potentially lose money.
                              In conclusion, we hope that these data are useful to CMS in
                              establishing a methodology for reimbursing separately billable ESRD
                              drugs. We would be pleased to assist CMS as they move forward with
                              any new pricing methodology.


                              Agency Comments
                              In accordance with the statutory mandate, we issued a draft report to
                              CMS on April 1, 2004 that contained much of the data presented in this
                              report. CMS thanked us for the opportunity to review the draft report.
                              They included several technical comments that have been addressed in
                              the final version. The full text of CMS’s comments is presented in the
                              Appendix.




O E I - 03 - 04 - 0 0 1 2 0   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   13
   �           A P P E N D I X 





O E I - 03 - 04 - 0 0 1 2 0   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   14

        A      P       P      E   N   D   I      X




O E I - 03 - 04 - 0 0 1 2 0                   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   15

   �           A C K N O W L E D G E M E N T S 



                              This report was prepared under the direction of Robert A. Vito, Regional
                              Inspector General for Evaluation and Inspections in the Philadelphia
                              Regional Office, and Linda M. Ragone, Deputy Regional Inspector
                              General. Other principal Office of Evaluation and Inspections staff who
                              contributed include:
                              Dave Tawes, Project Leader
                              Lauren McNulty, Program Analyst
                              Scott Hutchison, Program Analyst [Region IX]
                              Bambi Straw, Program Specialist
                              Barbara Tedesco, Mathematical Statistician
                              Linda Moscoe, Technical Support Staff




O E I - 03 - 04 - 0 0 1 2 0   ME D I C A R E RE I M B U R S E M E N T   FOR   EX I S T I N G E S R D D RUGS   16
